                                                                             Report No. DODIG-2014-079



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              June 16, 2014




                     Evaluation of the Department of
                     Defense Combating Trafficking in
                     Persons Program




I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e
    I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste, & Abuse

                                     HOTLINE
                                     Department of Defense
                                     d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                                             Results in Brief
                                             Evaluation of the Department of Defense Combating
                                             Trafficking in Persons Program



June 16, 2014

Objective                                                          Observations
The objective for this project was to review                       As a result of our program review, site visits, and interviews
DoD Combating Trafficking in Persons program                       the DoD OIG found several examples of positive actions by DoD
performance           and      compliance        with      DoD     Components to combat trafficking in persons:
Instruction        2200.01,      “Combating        Trafficking
in Persons (CTIP),” September 15, 2010.1 This                         •	 The Defense Procurement and Acquisition Policy Office, Office
capping report summarizes findings resulting                             of the Under Secretary of Defense for Acquisition, Technology,
from our multi-year review which began in                                and Logistics has drafted guidance to implement changes in
2009, in response to the requirement for the                             United States Government and Department of Defense policy
Inspectors General of the Department of Defense,                         regarding Combating Trafficking in Persons.
Department of State, and United States Agency
                                                                      •	 The Army and Air Force Exchange Service developed a “Bill of
for International Development to investigate a
                                                                         Workers Rights” and were proactive in addressing allegations
sample of contracts for which there was a
                                                                         of trafficking in persons in the United States Central Command
heightened risk that contractors may engage in
                                                                         area of operations.
acts related to trafficking in persons.2
                                                                      •	 On their own initiative, the Army Contracting Command-Kuwait
We performed field work from 2009 to 2012                                and the Defense Contract Management Agency incorporated
and follow-up in 2013.                  The team visited                 Combating Trafficking in Persons into contract quality assurance.
67 Department of Defense organizations at
                                                                   In addition, the DoD OIG found:
46 installations.            We conducted over 280
briefings, interviews, and sensing sessions with
                                                                      •	 Department of Defense Combating Trafficking in Persons
over 300 military and Department of Defense
                                                                         programs    did   not   meet    current   U.S.   Government      and
civilian personnel, and over 200 contractor
                                                                         Department of Defense policy statements.
personnel.        The team reviewed Department of
Defense Component policies, procedures, and                           •	 Most DoD Components had not reviewed their Combating
available       Combating        Trafficking     in   Persons            Trafficking in Persons programs.
inspection reports.
                                                                      •	 The Office of the Under Secretary of Defense for Personnel
	1	
                                                                         and Readiness had not completed any routine reviews of
       Department of Defense Instruction 2200.01, “Combating
       Trafficking in Persons (CTIP),” September 15, 2010,               Department of Defense Components’ self-assessments of their
       Enclosure 2, Section 6.a.                                         Combating Trafficking in Persons programs.
	 2	
       “William Wilberforce Trafficking in Victims Protection
       Reauthorization Act of 2008,” Public Law 110-457, Section
       232, December 23, 2008.




Visit us at www.dodig.mil


                                                                                        DODIG-2014-079 (Project No. D2009-DIP0E3-0260.000) │ i
                                          Results in Brief
                                          Evaluation of the Department of Defense Combating
                                          Trafficking in Persons Program



  Observations (cont’d)


      •	 The Joint Staff and combatant commands have not                                d.	 Establishes a clear and comprehensive process
         adequately addressed Combating Trafficking in Persons                             for reporting trafficking in persons incidents
         in operational and contingency plans.                                             and sharing information among appropriate

      •	 Department of Defense Combating Trafficking in Persons                            Department of Defense organizations.
         training compliance was incomplete and did not provide
         specific Combating Trafficking in Persons training for               Under Secretary of Defense for Personnel
         certain job functions.                                               and Readiness
                                                                              The Office of the Under Secretary of Defense for Personnel
  Recommendations, Management                                                 and Readiness concurred with Recommendations 1.a, 1.b, 1.c,
                                                                              and 1.d, and provided plans for revising DoD CTIP
  Comments, and Our Response                                                  guidance accordingly.

  Recommendation 1
  Under Secretary of Defense for Personnel and Readiness, publish
                                                                              Our Response
  updated Department of Defense Combating Trafficking in                      The DoD OIG finds the comments of the Office of the Under
  Persons guidance that:                                                      Secretary of Defense for Personnel and Readiness to be
                                                                              responsive to Recommendations 1.a, 1.b, 1.c, and 1.d. No
             a.	 Fully incorporates U.S. Government Combating                 further comments are required at this time.

                Trafficking     in     Persons      policy,   taking   into
                consideration Department of Defense Combating                 Revised Recommendation 2
                Trafficking in Persons Task Force findings.                   Under Secretary of Defense for Personnel and Readiness,
                                                                              expand program monitoring by the Combating Trafficking in
             b.	 Reinforces Department of Defense Component                   Persons Program Management Office to include a review of
                reporting requirements regarding CTIP metrics                 Department of Defense Components’ self-assessments of their
                and relevant information.                                     Combating Trafficking in Persons programs.

             c.	 Specifies, in detail, Combating Trafficking in
                                                                              Under Secretary of Defense for Personnel and
                Persons     program       elements      for   Department
                                                                              Readiness
                of    Defense        acquisition;     investigation    and
                                                                              The Office of the Under Secretary of Defense for Personnel
                law enforcement; operational planning; and
                                                                              and Readiness non-concurred with the initial draft version of
                training functions.
                                                                              Recommendation 2, and stated that it is the responsibility of the
                                                                              DoD Components to assess their own CTIP programs, and that,




ii │ DODIG-2014-079 (Project No. D2009-DIP0E3-0260.000)
                                   Results in Brief
                                   Evaluation of the Department of Defense Combating
                                   Trafficking in Persons Program



Recommendations, Management Comments,
and Our Response (cont’d)

at the request of the Combating Trafficking in Persons Program      Recommendation 3.a
Management Office, Components may provide CTIP program
                                                                    Under Secretary of Defense for Personnel and Readiness,
briefings to present their findings and share best practices.
                                                                    update Department of Defense Combating Trafficking in
                                                                    Persons policy to require combatant command joint plans, and
Our Response                                                        other relevant documents to include Combating Trafficking
In the draft report circulated for management comments, the         in Persons guidance and information, where necessary.
draft version of Recommendation 2 was
                                                                    Under Secretary of Defense for Personnel
   	   Under Secretary of Defense for Personnel and Readiness,      and Readiness
       expand program monitoring by the Combating Trafficking
                                                                    The Office of the Under Secretary of Defense for Personnel
       in Persons Program Management Office to include a
                                                                    and Readiness concurred with Recommendation 3.a, and
       review of Department of Defense Combating Trafficking in
                                                                    provided a plan to address the matter in future CTIP guidance,
       Persons programs.
                                                                    in coordination with the Joint Staff and Combatant Commands.
In response to comments from the Office of the Under Secretary
of Defense for Personnel and readiness, the DoD OIG revised         Our Response
text in the discussion and Recommendation 2 to increase clarity,
                                                                    The DoD OIG finds the comments of the Office of the Under
by stating that the Office of the Under Secretary of Defense for
                                                                    Secretary of Defense for Personnel and Readiness to be responsive
Personnel and Readiness needs to review DoD Components’
                                                                    to Recommendation 3.a. No further comments are required at
self-assessments of their CTIP Programs, rather than conducting
                                                                    this time.
the reviews of the DoD Components’ CTIP Programs.

The DoD OIG finds the Office of the Under Secretary of Defense      Recommendation 3.b
for Personnel and Readiness to be partially responsive to Revised   Director, Joint Staff, in coordination with commanders of the
Recommendation 2. While the Components are responsible              combatant commands:
for assessing their own CTIP programs, the Office of the Under
Secretary of Defense for Personnel and Readiness has the               1.	 Assess Combating Trafficking in Persons as part of
responsibility to monitor Component CTIP compliance, which                 routine operations and force planning and deployment.
involves oversight and review of Components’ self-assessments
of their CTIP programs. The DoD OIG requests that the Office           2.	 Review joint plans, deployment orders and post-

of the Under Secretary of Defense for Personnel and Readiness              conflict plans for inclusion of Combating Trafficking in

respond to Revised Recommendation 2 by July 16, 2014 with                  Persons considerations.

a plan to review DoD Components’ self-assessments of their             3.	 Monitor implementation of Combating Trafficking in
CTIP programs.                                                             Persons policies during all operations.




                                                                                  DODIG-2014-079 (Project No. D2009-DIP0E3-0260.000) │ iii
                                       Results in Brief
                                       Evaluation of the Department of Defense Combating
                                       Trafficking in Persons Program



  Recommendations, Management Comments,
  and Our Response (cont’d)

  Joint Staff                                                            of Defense for Personnel and Readiness concurred with draft
                                                                         Recommendations 4.a.2 and 4.a.3, and provided a plan to
  The Vice Director, Joint Staff, concurred with Recommendations
                                                                         require DoD contractors to complete annual CTIP training,
  3.b.1, 3.b.2, and 3.b.3, and provided a plan for addressing
                                                                         as well as to develop and provide additional specialized
  the matters.
                                                                         CTIP training.

  Our Response
                                                                         Our Response
  The DoD OIG finds the comments of the Vice Director, Joint
                                                                         In the draft report circulated for management comments, the
  Staff, to be responsive to Recommendations 3.b.1, 3.b.2, and
                                                                         draft version of Recommendation 4.a.1 was:
  3.b.3. No further comments are required at this time.

                                                                            	   Under Secretary of Defense for Personnel and Readiness:
  Revised Recommendation 4.a                                                    Enforce Department of Defense Component compliance
  Under Secretary of Defense for Personnel and Readiness:                       with the requirement to conduct annual Combatting
                                                                                Trafficking in Persons awareness training for all
      1.	 Implement the stated intent of the Deputy Secretary of                Component members.
         Defense requiring Department of Defense contractors
                                                                         In response to comments from the Office of the Under
         to complete annual Combating Trafficking in Persons
                                                                         Secretary of Defense for Personnel and Readiness, the
         training by publishing it in Department of Defense policy.
                                                                         DoD OIG deleted draft Recommendation 4.a.1, regarding Office
      2.	 In coordination with the Under Secretary of Defense for        of the Under Secretary of Defense for Personnel and Readiness
         Acquisition, Technology, and Logistics, the director of the     enforcement      of   CTIP   awareness   training   requirements,
         Joint Staff, and the secretaries of the military departments,   added a discussion on the subject in Observation 4, and
         develop     and    implement       specialized   Combating      changed draft Recommendations 4.a.2 and 4.a.3 to Revised
         Trafficking in Persons training for legal counsel and           Recommendations 4.a.1 and 4.a.2.
         strategic planners.
                                                                         The DoD OIG finds the comments of the Office of the Under
  Under Secretary of Defense for Personnel                               Secretary of Defense for Personnel and Readiness to be
  and Readiness                                                          responsive to Revised Recommendation 4.a.1 and 4.a.2.
                                                                         No further comment is required at this time.
  The Office of the Under Secretary of Defense for Personnel
  and Readiness non-concurred with draft Recommendation
  4.a.1 and stated that the CTIP Instruction assigns them the
  responsibility to develop overall guidance for DoD CTIP, rather
  than to enforce compliance. The Office of the Under Secretary




iv │ DODIG-2014-079 (Project No. D2009-DIP0E3-0260.000)
                                     Results in Brief
                                     Evaluation of the Department of Defense Combating
                                     Trafficking in Persons Program



Recommendations, Management Comments,
and Our Response (cont’d)

Recommendation 4.b                                                  Based on comments from and discussion with representatives
                                                                    of the Office of the Under Secretary of Defense for Personnel
Under Secretary of Defense for Acquisition, Technology and
                                                                    and Readiness, and the Office of the Under Secretary of Defense
Logistics, upon issuance of a Department of Defense policy
                                                                    for Acquisition, Technology and Logistics, the DoD OIG
requirement for Department of Defense contractors to complete
                                                                    revised draft Recommendation 4.a.2, splitting it into Revised
annual Combating Trafficking in Persons training, request
                                                                    Recommendation 4.a.1 and a newly created Recommendation
that the Defense Federal Acquisition Regulation Supplement
                                                                    4.b, to better align with current responsibilities of both Offices.
address this training requirement.

                                                                    The DoD OIG finds the comments of the Office of the Under
Under Secretary of Defense for Acquisition,                         Secretary of Defense for Acquisition, Technology and Logistics
Technology and Logistics                                            to be responsive to Recommendation 4.b. No further comment
The Office of the Under Secretary of Defense for Acquisition,       is required at this time.
Technology     and    Logistics      concurred   with    Revised
Recommendation 4.b in this report, and stated they would
develop a plan to implement the requirement once a DoD
policy requirement is issued.


Our Response
In the draft report circulated for management comments, the
draft version of Recommendation 4.a.2 was:

   	   Under Secretary of Defense for Personnel and Readiness,:
       In coordination with the Under Secretary of Defense for
       Acquisition, Technology, and Logistics, implement the
       stated intent of the Deputy Secretary of Defense requiring
       Department of Defense contractors to complete annual
       Combating Trafficking in Persons training.




                                                                                   DODIG-2014-079 (Project No. D2009-DIP0E3-0260.000) │ v
                                                          FOR OFFICIAL USE ONLY



                   Recommendations Table
                                                                         Recommendations       No Additional
                                        Management                       Requiring Comment   Comments Required
                    The Under Secretary of Defense for Personnel and                         1.a, 1.b, 1.c, 1.d, 3.a,
                                                                        2
                    Readiness                                                                4.a.1, 4.a.2
                    Under Secretary of Defense for Acquisition,                              4.b
                    Technology and Logistics
                    Director, Joint Staff                                                    3.b.1, 3.b.2, 3.b.3

                   Total Recommendations in this report: 12

                   For recommendations requiring response, please reply by July 16, 2014.




vi │ DODIG-2014-079 (Project No. D2009-DIP0E3-0260.000)
                                  INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                                   June 16, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
           UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY
           	 AND LOGISTICS
           DIRECTOR, JOINT CHIEFS OF STAFF

SUBJECT: Evaluation of the DoD Combating Trafficking in Persons Program
              	 (Report No. DoDIG-2014-079)

The Deputy Inspector General, Special Plans and Operations, is providing this report for review
and comment. We considered management comments to a draft of this report when preparing
the final report.

Comments from the Office of the Under Secretary of Defense for Acquisition, Technology and
Logistics, as well as the Vice Director, Joint Staff, were fully responsive.

Comments from the Office of the Under Secretary of Defense for Personnel and Readiness were
fully responsive for all relevant recommendations with the exception of Recommendation 2,
where their response was partially responsive. We subsequently clarified, and have issued
in this report, a Revised Recommendation 2. As a result, we ask that the Office of the Under
Secretary of Defense for Personnel and Readiness respond by July 16, 2014, to Revised
Recommendation 2.

Please provide a response that conforms to the requirements of DoD Directive 7650.3. If possible,
send your response in electronic format (Adobe Acrobat file only) to SPO@dodig.mil. Copies of
your response must have the actual signature of the authorizing official for your organization.
We are unable to accept the /Signed/ symbol in place of the actual signature.

We appreciate the courtesies extended to the staff. Please direct questions to SPO@dodig.mil.
We will provide a formal briefing on the results if management requests.




	                                               Kenneth P. Moorefield
	                                               Deputy Inspector General
	                                                 Special Plans and Operations




                                                                                          DODIG-2014-079 │ vii
                                                   FOR OFFICIAL USE ONLY



                  Contents
                  Introduction
                  Background and Criteria________________________________________________________________________1
                  Objective__________________________________________________________________________________________5
                  Scope and Methodology_________________________________________________________________________5

                  Ongoing DoD Efforts to Combat Trafficking
                  in Persons__________________________________________________________________________________7
                  Observation 1. Combating Trafficking in Persons
                  Program Guidance and Implementation___________________________ 11
                  Observation 2 Inadequate Combating Trafficking in
                  Persons Program Oversight_________________________________________________ 17
                  Observation 3. Strategic Planning_____________________________________ 21
                  Observation 4. Combating Trafficking in Persons
                  Training—DoD Military, Civilian, and
                  Contractor Personnel____________________________________________________________ 25
                  Follow-Up on Prior Recommendations_____________________________ 31
                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 33
                  Appendix B. Prior Coverage__________________________________________________________________ 35
                  Appendix C. Department of Defense Combating Trafficking in Persons
                     Task Force Members_ _____________________________________________________________________ 36

                  Management Comments_____________________________________________________ 37
                  Acronyms and Abbreviations______________________________________________ 44




                                      DRAFT REPORT	             FOR OFFICIAL USE ONLY
ix │ DODIG-2014-079                                                                                                      Project No. │ ix
                                                                                                                               Introduction




Introduction
Prior to 2000, allegations of sexual slavery, sex with minors, and human trafficking
involving U.S. contractors in Bosnia and Herzegovina led to administrative and
criminal investigations by U.S. Government agencies. In 2002, a local television news
program aired a report alleging that women trafficked from the Philippines, Russia,
and Eastern Europe were forced into prostitution in bars in South Korea frequented by
U.S. military personnel, which resulted in an investigation and changes in DoD policy.
In 2004, official DoD reports chronicled allegations of forced labor and debt bondage
against U.S. contractors in Iraq, and, in 2008, workers for a subcontractor supporting
U.S. troops in Iraq rioted over poor treatment.                             These incidents were contrary to
U.S. Government policy regarding official conduct and reflected poorly on DoD. Starting
                                                                       3


in 2000, Congress had passed a series of legislative acts, described below, to address
its concern regarding allegations of U.S Government contractor and U.S. forces’
involvement in sexual slavery, human trafficking, and debt bondage.


Background and Criteria
Federal Law
In 2000, the President signed into law two anti-trafficking statutes:

               •	 Public Law 106-386, October 28, 2000, which included the “Victims of
                  Trafficking and Violence Protection Act of 2000,” and

               •	 Public Law 106-523, November 22, 2000, “Military Extraterritorial
                  Jurisdiction Act of 2000.”

The stated purposes of the first statute are “. . . to combat trafficking in persons (CTIP),
a contemporary manifestation of slavery whose victims are predominantly women
and children, to ensure just and effective punishment of traffickers, and to protect
their victims.”           The second statute established “Federal jurisdiction over offenses
committed outside the United States by persons employed by or accompanying
the Armed Forces, or by members of the Armed Forces who are released or separated
from active duty prior to being identified and prosecuted for the commission of
such offenses.”



	 3	
       Executive Order 13257 “President’s Interagency Task Force To Monitor and Combat Trafficking in Persons,” of
       February 13, 2002, and Executive Order 13333, “Amending Executive Order 13257 To Implement the Trafficking Victims
       Protection Reauthorization Act of 2003,” March 18, 2004.




                                                                                                                            DODIG-2014-079 │ 1
Introduction



                 Congress specifically extended this extraterritorial jurisdiction over Trafficking in
                 Persons (TIP) offenses committed by persons employed by or accompanying the
                 Federal Government outside the United States in Public Law 109-164, “Trafficking
                 Victims Protection Reauthorization Act Of 2005,” January 10, 2006.

                 Additional reauthorizations expanded the scope and applicability of the original
                 statute. Public Law 108-193, the “Trafficking Victims Protection Reauthorization Act
                 of 2003,” December 19, 2003, gave the Government the added authority to terminate
                 grants, contracts, or cooperative agreements for TIP-related violations.

                 Sections 1701-1708, “Ending Trafficking in Government Contracting,” of Public
                 Law 112-239, “The National Defense Authorization Act for Fiscal Year 2013,”
                 January 2, 2013, expanded the reporting requirements for TIP allegations, requiring
                 reporting by contractors, as well as expanding the investigative requirements of
                 contracting offices, local commands, and Inspectors General when they receive
                 allegations of TIP.

                 Finally, Public Law 113-4, “Violence Against Women Reauthorization Act of 2013,”
                 signed on March 17, 2013, included Title XII, “Trafficking Victims Protection,” which
                 reauthorized and further amended the statutes governing U.S. Government efforts to
                 combat TIP internationally and within the U.S.


                 Executive Policy
                 In 2002, the President issued National Security Presidential Directive 22, “Trafficking
                 in Persons,” December 16, 2002, instructing Federal agencies to “strengthen their
                 collective effort, capabilities, and coordination to support the policy to combat
                 trafficking in persons.”   In 2004, the Secretary of Defense, Deputy Secretary of
                 Defense, and Under Secretaries of Defense for Policy and for Personnel and Readiness
                 issued policy memorandums whose primary focus was TIP awareness training.

                 Department of Defense Instruction 2200.01, “Combating Trafficking in Persons,”
                 (DoD CTIP Instruction) February 16, 2007, replaced DoD policy statements.          The
                 DoD CTIP Instruction articulated policy beyond training and awareness to include:

                          •	 deterring and opposing TIP activities,

                          •	 educating DoD military and civilian personnel,

                          •	 increasing CTIP efforts by commanders worldwide, and

                          •	 incorporating CTIP provisions in service contracts.



2 │ DODIG-2014-079
                                                                                                               Introduction



In 2006, the Civilian Agency Acquisition Council and the Defense Acquisition Council
agreed on an interim rule implementing the above stated requirement, adding
Federal Acquisition Regulation Subpart 22.17, “Combating Trafficking in Persons.”
The regulation states that the “subpart applies to all acquisitions,” and that, pursuant
to paragraph 22.1705, the Federal Acquisition Regulation contract clause 52. 222-50,
“Combating Trafficking in Persons,” is to be inserted in all solicitations and contracts.
DoD revised and reissued the DoD CTIP Instruction on September 15, 2010, naming
the CTIP Policy Programs and Support Office of the Office of the Under Secretary of
Defense for Personnel and Readiness (DoD CTIP Program Management Office) as
the responsible office. The DoD CTIP Instruction states that it is DoD CTIP policy to:

               a.	 Oppose prostitution, forced labor, and any related activities, as described
                  in section 3, that may contribute to the phenomenon of TIP as inherently
                  harmful and dehumanizing. TIP is a violation of U.S. law and internationally
                  recognized human rights, and is incompatible with DoD core values.

               b.	 Deter activities of DoD service members, civilian employees, indirect hires,
                  contract personnel, and command-sponsored dependents that would
                  facilitate or support TIP, domestically and overseas. This includes activities
                  such as pandering, prostitution, and patronizing a prostitute, even though
                  such activities may be legal within a host nation country, but which are
                  in violation of chapter 47 of title 10, U.S.C. (also known as “The Uniform
                  Code of Military Justice” . . . and paragraph 97, part IV of Manual for
                  Courts-Martial 2008).

On September 25, 2012, the President issued Executive Order 13627, “Strengthening
Protections Against Trafficking in Persons in Federal Contracts.” The order required:4

               •	 The Federal Acquisition Regulation Council to amend the Federal Acquisition
                  Regulation to expressly prohibit contractors, subcontractors, and their
                  employees from:

                            {{   using misleading or fraudulent recruitment practices,

                            {{   charging employees recruitment fees,

                            {{   withholding employee identity documents, and

                            {{   failing to pay return transportation costs at the end of employment.



	 4	
       Department of Defense Instruction 2200.01, “Combating Trafficking in Persons,” September 15, 2010.




                                                                                                            DODIG-2014-079 │ 3
Introduction



                                    •	 Contractors, by contract clause, to agree to:

                                                  {{   cooperate fully with U.S. Government agencies conducting audits
                                                       or investigations of TIP allegations,

                                                  {{   notify agency Inspectors General, suspension and debarment
                                                       officials, and law enforcement if they become aware of any TIP or
                                                       related activities, and

                                                  {{   develop a CTIP compliance plan when the estimated value
                                                       of supplies or services to be performed outside the U.S.
                                                       exceeds $500,000.

                                    •	 The Administrator for Federal Procurement Policy to:

                                                  {{   develop guidance to agencies on internal procedures and controls,

                                                  {{   develop methods to track TIP incidents, and

                                                  {{   implement         CTIP       training       requirements            for     the     Federal
                                                       acquisition workforce.

                     Department of State Leadership
                     The Office to Monitor and Combat Trafficking in Persons of the U.S. Department of
                     State leads the U.S. Government’s global engagement against human trafficking, with
                     responsibility for bilateral and multilateral diplomacy, targeted foreign assistance,
                     and public engagement. This office, in conjunction with the National Security Council
                     Staff, leads the President’s Interagency Task Force to Monitor and Combat Trafficking
                     in Persons, which oversees the development of strategy, planning, and implementation
                     of U.S. Government activities regarding monitoring and combating TIP. The Secretary
                     of Defense is an active participant in this task force.

                     The Office to Monitor and Combat Trafficking in Persons publishes an annual “Trafficking
                     in Persons Report,” presenting a global summary of the nature and scope of the issue,
                     and a by-country summary of the broad range of government actions taken to confront
                     and eliminate it.The reports for 2012 and 2013 included recommendations for the
                     U.S. Government, including:5




                     	 5	
                            “Trafficking in Persons Report,” Department of State, June 2012, page 360, and “Trafficking in Persons Report,” Department
                            of State, June 2013, page 382. Accessible at http://www.state.gov/j/tip/rls/tiprpt/index.htm.




4 │ DODIG-2014-079
                                                                                                                                        Introduction



               •	 improve human trafficking case data collection and analysis,

               •	 strengthen implementation of and increase resources for enforcement of the
                   “zero tolerance” policy,

               •	 pursue civil or criminal prosecutions or other sanctions such as debarment for
                   noncompliant employers and labor contractors,

               •	 expand universal and specialized CTIP training to the Federal workforce,

               •	 increase the role of survivors of human trafficking in policy development,

               •	 continue to increase CTIP efforts in existing Government structures,

               •	 expand CTIP outreach, and

               •	 offer comprehensive victim services to all identified, eligible victims.

These recommendations demonstrate the continued expansion of U.S. Government efforts
beyond training, awareness, and contract language. While not binding, the recommendations
provide items for consideration to improve TIP incidentdetection, investigation, and
enforcement; outreach and assistance to TIP victims; and strategic planning.


Objective
The objective for this project was to:

               •	 review a sample of DoD contracts for compliance with the “Trafficking Victims
                   Protection Act of 2000,” (Title 22, U.S. Code, Chapter 78) as amended,

               •	 summarize DoD CTIP investigative efforts, and

               •	 review DoD compliance with DoD Instruction 2200.01, “Combating Trafficking
                   in Persons,” September 15, 2010,”6 and CTIP program performance.

Prior reports published in 2010 through 2012 addressed the first two listed objectives.7
This report summarizes findings with regard to DoD compliance with the DoD
CTIP Instruction.


Scope and Methodology
See Appendix A.

	 6	
       Department of Defense Instruction 2200.01, “Combating Trafficking in Persons (CTIP),” September 15, 2010, Enclosure 2, Section
       6.a.
	 7	
       See Appendix B for a listing of these reports.




                                                                                                                                   DODIG-2014-079 │ 5
                                                                       Ongoing DoD Efforts to Combat Trafficking in Persons




Ongoing DoD Efforts to Combat Trafficking
in Persons
In April 2012, the DoD CTIP Program Management Office initiated a DoD CTIP Task
Force to coordinate and facilitate DoD efforts related to CTIP awareness, contract
language, TIP incident reporting, investigations, and corrective actions. The DoD CTIP
Task Force included participation by select DoD Components.8 Positive results included
the development of a strategic plan and, in August 2012, the deployment of a team
to Afghanistan sponsored by the DoD CTIP Program Management Office. This team
observed DoD CTIP program implementation and helped resolve TIP-related issues
in Afghanistan.

The DoD CTIP Program Management Office reported that it has initiated revision to the
DoD CTIP Instruction, along with supporting planning guidance documents, but did not
specify a timeframe for their publication.

Over the course of field work, including site visits to eight countries in the area of
responsibility for three combatant commands, the DoD OIG team identified several
initiatives taken by DoD organizations to improve DoD Component programs and
general CTIP awareness.

              •	 The Defense Procurement and Acquisition Policy Office of the Office of
                  the Under Secretary of Defense for Acquisition, Technology, and Logistics
                  has drafted guidance to implement Executive Order 13627, “Strengthening
                  Protections Against Trafficking In Persons In Federal Contracts.” The policy,
                  when finalized in the Federal Acquisition Regulation and the Defense
                  Federal Acquisition Regulation Supplement, will incorporate all the
                  requirements of the Executive Order.

              •	 Actions by the Defense Procurement and Acquisition Policy Office and
                  the acquisition organizations of the Military Services have resulted in a
                  significant increase in the rate of CTIP clause inclusion in DoD contracts.9
                  The rate of inclusion of the CTIP clause in sampled contracts increased
                  from 50 percent to 97 percent during fiscal years 2009 to 2011, the three
                  years that we evaluated DoD contracts.



	 8	
       See Appendix C, Department of Defense Combating Trafficking in Persons Task Force Members
	9	
       Federal Acquisition Regulation Clause 52.222-50,” Combating Trafficking in Persons.”




                                                                                                            DODIG-2014-079 │ 7
Ongoing DoD Efforts to Combat Trafficking in Persons



                       •	 The Army and Air Force Exchange Service developed a “Bill of Workers
                          Rights” and was proactive in the Central Command area of operations.
                          Managers were inspecting employees working and housing conditions
                          and conducting random passport checks to verify employers were not
                          holding them.

                       •	 On their own initiative, the Army Contracting Command-Kuwait and the
                          Defense Contract Management Agency incorporated CTIP considerations
                          into contract quality assurance in Kuwait, Qatar, and Afghanistan. Contract
                          quality assurance personnel used a command-developed checklist to verify
                          that contractors met CTIP requirements. The Defense Procurement and
                          Acquisition Policy Office stated their intent to require similar checklists for
                          all DoD contract administration.

                       •	 The Defense Procurement and Acquisition Policy Office participated in
                          changes to the Federal Acquisition Regulation and initiated changes to the
                          Defense Federal Acquisition Regulation Supplement. Further, office officials:

                                 {{   defined contracting officer responsibilities to maintain surveillance
                                      over contractor CTIP compliance,

                                 {{   published the “Department of Defense COR [Contracting Officer
                                      Representative] Handbook,” “Defense Contingency Contracting
                                      Handbook,” and “Defense Contingency COR [Contracting Officer
                                      Representative] Handbook,” that included guidance concerning
                                      CTIP awareness and reporting.

                       •	 The Defense Procurement and Acquisition Policy Office, along with the DoD
                          CTIP Program Management Office:

                                 {{   provided input to standardized contracting office CTIP training for
                                      contingency environments,

                                 {{   published and distributed a worker’s rights brochure and wallet
                                      cards, as shown below, which are available in eight languages.




8 │ DODIG-2014-079
                                                                       Ongoing DoD Efforts to Combat Trafficking in Persons



Figure 1. CTIP Contract Wallet Card for Workers in a Contingency
Contracting Environment




Source: Contingency Contracting Directorate, Defense Procurement and Acquisition Policy, Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics. Available at http://ctip.defense.gov/Resources.aspx



            •	 The U.S. Central Command Joint Theater Support Contracting Command
                had developed supplemental contract clauses that address CTIP issues in
                Iraq and Afghanistan. These clauses required all prime and subcontractors
                performing DoD contracts to:

                          {{   allow employees to retain their passports,

                          {{   provide employees with signed copies of their employment
                               contract in English and their native language,

                          {{   provide adequate living conditions for their employees (and
                               defines such) as well as to incorporate checks of employees’ life
                               support areas in quality control programs,

                          {{   comply with international and host-nation transit/exit/entry
                               requirements, and

                          {{   prohibit prime and subcontractors performing DoD contracts
                               from using “unlicensed recruiting firms or firms that charge illegal
                               recruiting fees.”




                                                                                                                            DODIG-2014-079 │ 9
                                                                                                     Observation 1




Observation 1
Combating Trafficking in Persons Program Guidance
and Implementation
The DoD Components did not adequately develop their CTIP programs in accordance
with current U.S. Government and DoD policy statements.

DoD Component CTIP programs remained underdeveloped in that there was:

                •	 inadequate guidance to define the scope of programmatic CTIP
                    responsibilities, and

                •	 the lack of a clear process for reporting and investigating TIP allegations
                    within, and sharing TIP-related information among, DoD Components.

As a result, responsible officials in DoD could not demonstrate CTIP program compliance,
and could not effectively report that it was adequately investigating, deterring, or
correcting potential TIP incidents.



Discussion
The purpose of the “Trafficking Victims Protection Act of 2000,”10 as amended, is to
combat trafficking in persons, ensure effective punishment of traffickers, and protect
trafficking victims.               National Security Presidential Directive 22 elaborated further,
stating that Government policy must include:

                •	 vigorous enforcement of the law;

                •	 raised awareness at home and abroad;

                •	 identification, protection, and assistance for victims;

                •	 reduced vulnerability of individuals to trafficking; and

                •	 use of diplomacy and foreign policy tools to encourage other nations to
                    combat TIP.




	 10	
        Codified at United States Code Title 22 Sections 7101-7112.




                                                                                                 DODIG-2014-079│ 11
Observation 1



                 During site visits the DoD OIG found that the DoD Components conducted mandatory
                 CTIP training required by the CTIP Instruction and tracked training completion, with
                 a significant number of DoD Components missing reporting deadlines by more than
                 a month.           Some Components took initiative beyond mandated training, including:

                                •	 holding CTIP awareness days,

                                •	 incorporating CTIP into an emergency response drill, and

                                •	 supplementing CTIP training with local and cultural considerations.

                 However, few Components were able to demonstrate that they had included additional
                 program elements, such as including CTIP awareness in operational or contingency
                 planning or processes for the prevention, detection, investigation, and correction of
                 TIP incidents, as required by the statute and Executive directives cited above. We also
                 found little evidence of Component self-evaluations of their CTIP training programs.


                 Combating Trafficking in Persons Guidance
                 The DoD CTIP Instruction did not provide sufficient guidance for DoD organizations
                 to develop their own procedures for establishing and maintaining their own CTIP
                 programs.           The DoD CTIP Instruction required the heads of DoD Components to:

                                •	 establish policies and procedures to implement the DoD CTIP program;

                                •	 designate a Component CTIP office of primary responsibility and a CTIP
                                    program officer;

                                •	 conduct         an      annual       CTIP       awareness          training        program      for   all
                                    Component members;

                                •	 conduct periodic evaluations of CTIP awareness training;

                                •	 provide CTIP program data (training participation of DoD personnel,
                                    contractor adherence to CTIP policy consistent with Federal Acquisition
                                    Regulation, and disposition of criminal cases for TIP-related offenses); and

                                •	 increase efforts to pursue indicators of TIP in commercial establishments,
                                    place offending establishments off-limits, and support host-country
                                    authorities to combat TIP.11




                 	11	
                        DoD Instruction 2200.01, “Combating Trafficking in Persons,” September 15, 2010, Enclosure 2, Section 7.




12 │ DODIG-2014-079
                                                                                                                             Observation 1



Most commanders and executive leaders we interviewed requested additional
guidance and clarification regarding the CTIP program and its implementation. For
example, the DoD CTIP Instruction requires designation of Component CTIP program
officers, but provides insufficient guidance describing mandatory or suggested
CTIP program elements.                    These elements would likely vary based on the role or
mission of the organization or its potential impact on DoD efforts to combat TIP.

Table 1 outlines where additional CTIP program guidance would be of value.

Table 1. Potential CTIP Guidance
   Function/Organization                                Potential Areas for Additional Guidance
                                    Inclusion of CTIP elements into DoD and Service acquisition policy, and
   Acquisition                      procedures
   Investigation and Law            Identification and detection of TIP; collaboration with DoD Acquisition
   Enforcement                      organizations; as well as TIP victim identification, assistance, and referral
   Operational Planning             Inclusion of CTIP elements into operations and contingency planning
   Source: DoD OIG



The DoD CTIP Instruction tasks the Under Secretary of Defense for Personnel and
Readiness, in coordination with the Under Secretary of Defense for Policy, with the
responsibility for developing additional CTIP guidance for the DoD Components.”12


Notification of Contracting Officers of Trafficking in
Persons Incidents
In a previous report,13 the DoD OIG observed that contractor-initiated reporting, as
required by the Federal Acquisition Regulation, was often the only means by which
DoD contracting offices obtained timely and relevant releasable information regarding
actual or alleged TIP violations.

Criminal investigative organizations did not provide relevant information to contracting
offices. Furthermore, there was no DoD law enforcement policy requirement to share
TIP-related, publicly releasable information with Commanders, contracting commands,
or other relevant organizations.

The failure to share releasable TIP-related information from criminal investigations
with U.S Government contracting organizations could impede their ability to make


	 12	
         DoD Instruction 2200.01, “Combating Trafficking in Persons,” September 15, 2010, Enclosure 2, Section 1.a.
	 13	
         DoD Office of the Inspector General Report Number IE-2010-001, “Evaluation of DoD Contracts Regarding Combating
        Trafficking in Persons,” January 15, 2010.




                                                                                                                           DODIG-2014-079│ 13
Observation 1



                 fully informed decisions regarding contracting actions. Conversely, the lack of sharing
                 impeded the ability of law enforcement organizations to conduct a comprehensive
                 investigation to identify offenders or make arrests.      It also hinders commanders
                 from limiting installation access of TIP offenders at overseas bases.

                 As of March 2014, the DoD CTIP Instruction did not address procedures for proactively
                 sharing publicly releasable TIP-related case information with contracting offices,
                 or for sharing other TIP-related information between contracting, law enforcement,
                 and commanders responsible for CTIP programs. This is a law enforcement policy
                 matter for which the Under Secretary of Defense for Personnel and Readiness
                 has responsibility.

                 In response to DoD and congressional interest in CTIP incidents associated with
                 DoD, the DoD CTIP Program Management Office formed a CTIP Task Force to identify
                 and address DoD CTIP issues.          The Task Force includes members of many
                 DoD organizations, and one of the tasks that it was undertaking was to develop a
                 TIP incident reporting flowchart, with supporting process descriptions, for inclusion
                 into DoD CTIP guidance.

                 As U.S. Government policy regarding TIP evolves, executive leadership and
                 commanders should review U.S. Government and DoD CTIP policy and demonstrate
                 command emphasis regarding CTIP to maximize the effectiveness of their CTIP
                 program implementation.




14 │ DODIG-2014-079
                                                                                        Observation 1



Recommendations, Management Comments, and
Our Response
Recommendation 1
Under Secretary of Defense for Personnel and Readiness, publish updated
Department of Defense Combating Trafficking in Persons guidance that:

        a.	 Fully incorporates U.S. Government Combating Trafficking in Persons
           policy, taking into consideration Department of Defense Combating
           Trafficking in Persons Task Force findings.

        b.	Reinforces Department of Defense Component reporting requirements
           regarding CTIP metrics and relevant information.

        c.	 Specifies, in detail, Combating Trafficking in Persons program
           elements for Department of Defense acquisition; investigation and law
           enforcement; operational planning; and training functions.

        d.	Establishes a clear and comprehensive process for reporting trafficking
           in persons incidents and sharing releasable information among
           appropriate Department of Defense organizations.

Under Secretary of Defense for Personnel and Readiness
The Office of the Under Secretary of Defense for Personnel and Readiness concurred
with Recommendations 1.a, 1.b, 1.c, and 1.d, and provided plans for revising DoD CTIP
guidance accordingly.


Our Response
The DoD OIG finds the comments of the Office of the Under Secretary of Defense for
Personnel and Readiness to be responsive to Recommendations 1.a, 1.b, 1.c, and 1.d.
No further comments are required at this time.




                                                                                    DODIG-2014-079│ 15
                                                                                                                                 Observation 2




Observation 2
Inadequate Combating Trafficking in Persons
Program Oversight
Few DoD Components had assessed their CTIP programs, as required by the DoD
CTIP Instruction.

The Office of the Under Secretary for Personnel and Readiness had not effectively
monitored and reviewed DoD Component CTIP compliance.

Consequently, DoD Components were not encouraged to comply and did not identify
missing and under-performing CTIP program elements and, therefore, could not
take appropriate corrective action.



Discussion
The DoD CTIP Instruction requires the heads of the DoD Components to “conduct
periodic evaluation of CTIP awareness training, periodically involve the Component
Inspectors General in the conduct of these evaluations, and provide the results of
evaluations to the Component IGs.”14 During our interviews with DoD Components
and military commands through July 2013, we found that few had conducted a
CTIP program review.

The DoD CTIP Instruction further requires the Under Secretary of Defense for Personnel
and Readiness to, “monitor compliance with this instruction.”15 During our assessment,
representatives from the DoD CTIP Program Management Office and other executive
leadership stated they had not planned or completed any reviews of Component
CTIP program assessments, beyond conferences and workshops where Component
program coordinators briefed their programs.

In 2012, staff in the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics discovered that current DoD and U.S. Central Command
regulations required that field commands process contracted workers arriving
from outside the theater through local worker reception centers for workforce
integration, management, and training in the contingency environment. However,

	 14	
      Department of Defense Instruction 2200.01, “Combating Trafficking in Persons (CTIP),” September 15, 2010, Enclosure 2,
     Section 7.d
	 15	
      Department of Defense Instruction 2200.01, “Combating Trafficking in Persons (CTIP),” September 15, 2010, Enclosure 2,
     Section 1.i.




                                                                                                                               DODIG-2014-079 │ 17
Observation 2



                 field commands in the U.S. Central Command area of responsibility had not established
                 worker reception centers,16 missing an opportunity to increase worker awareness.

                 The DoD CTIP Program Management Office maintained contact with Component
                 program officers. They sponsored annual meetings with Component program officers
                 to discuss CTIP policy and emerging issues. They also chaired monthly meetings of the
                 CTIP Task Force at which DoD-wide CTIP issued were discussed.

                 Finally, the DoD CTIP Program Management Office annually requested l Component
                 input consisting of DoD CTIP training metrics, CTIP related information required
                 for the “[U.S.] Attorney General’s Annual Report to Congress and Assessment of
                 U.S. Government Activities to Combat Trafficking in Persons,” as well as a list of
                 Component annual accomplishments. These were not necessarily good indicators
                 of Component CTIP program performance, especially in lieu of assessments of
                 DoD Component CTIP programs.

                 Performance evaluation is an essential part of managing DoD programs and ensuring
                 they achieve desired outcomes. For many organizations, inclusion of CTIP program
                 reviews into existing command or inspector general inspections could substantially
                 contribute to awareness of program compliance. Reporting significant results of
                 these inspections through appropriate chains of command to the DoD CTIP Program
                 Management Office would improve the office’s ability to monitor and improve
                 DoD CTIP performance. Periodic field validation and one-on-one discussions with
                 DoD Components by the DoD CTIP Program Management Office would further
                 strengthen its ability to reduce the occurrence or severity of DoD TIP incidents.


                 Recommendation, Management Comments, and
                 Our Response
                 Revised Recommendation
                 In the draft report circulated for management comments, the draft version of
                 Recommendation 2 was:

                                    Under Secretary of Defense for Personnel and Readiness, expand
                                    program monitoring by the Combating Trafficking in Persons
                                    Program Management Office to include a review of Department
                                    of Defense Combating Trafficking in Persons programs.


                 	 16	
                         Department of Defense Instruction 3020.41, “Operational Contract Support,” December 20, 2011, section 4.c.1




18 │ DODIG-2014-079
                                                                                           Observation 2



In response to comments from the Office of the Under Secretary of Defense
for Personnel and readiness, the DoD OIG revised text in the discussion and
Recommendation 2 to increase clarity, by stating that the Office of the Under Secretary
of Defense for Personnel and Readiness needs to review DoD Components’
self-assessments of their CTIP Programs, rather than conducting the reviews of the
DoD Components’ CTIP Programs.


Recommendation 2
Under Secretary of Defense for Personnel and Readiness, expand program
monitoring by the Combating Trafficking in Persons Program Management Office
to include a review of Department of Defense Components’ self-assessments of
their Combating Trafficking in Persons programs.


Under Secretary of Defense for Personnel and Readiness
The Office of the Under Secretary of Defense for Personnel and Readiness non-concurred
with draft Recommendation 2, stating that it is the responsibility of DoD Components
to assess their own CTIP programs, and that at the request of the Combating Trafficking
in Persons Program Management Office, Components may provide CTIP program
briefings to present their findings and share best practices.


Our Response
The DoD OIG finds the Office of the Under Secretary of Defense for Personnel
and Readiness to be partially responsive to Revised Recommendation 2. While the
Components are responsible for assessing their own CTIP programs, the Office of the
Under Secretary of Defense for Personnel and Readiness has the responsibility to monitor
Component CTIP compliance, which includes oversight and review of Components’
self-assessments of their CTIP programs. The DoD OIG requests that the Office of
the Under Secretary of Defense for Personnel and Readiness respond to Revised
Recommendation 2 by July 16, 2014 with a plan to review DoD Components’
self-assessments of their CTIP programs.




                                                                                       DODIG-2014-079 │ 19
                                                                                                                                   Observation 3




Observation 3
Strategic Planning
Combatant command operational and contingency plans did not adequately
address CTIP.

This occurred because of inadequate guidance in the DoD CTIP Instruction and
insufficient oversight by the Joint Staff regarding CTIP information in combatant
commands’ joint plans, deployment orders and other documents.

As a result, combatant commands and joint task forces were not adequately prepared
to mitigate potential TIP violations, respond to alleged TIP incidents, or efficiently
report CTIP incident summary statistics that occurred during the execution of routine
operations, or contingency operations and deployments.


Discussion
The DoD CTIP Instruction assigns the Joint Staff three primary oversight functions:

                •	 assess CTIP as part of the overall force planning function for any force
                    deployment decision, including establishment of new DoD bases overseas
                    and annually reassess the CTIP posture of deployed forces;

                •	 review the combatant commanders’ joint plans, deployment orders, and
                    other relevant documents and include CTIP information, where necessary,
                    monitor the combatant commanders’ post-conflict plans and programs
                    for inclusion of CTIP; and

                •	 monitor implementation of the policies in the DoD CTIP Instruction and
                    in related implementing instructions during military operations.17

During our fieldwork, we interviewed officials assigned to the Joint Staff and four
combatant commands who had responsibility for Component CTIP programs and
reviewed related planning and other documents.                                  While we found that combatant
commanders had developed CTIP policy and were providing information on TIP
incidents to the DoD CTIP Program Management Office, we found no evidence that
operational and contingency plans included CTIP considerations, beyond a reference
to the DoD CTIP Instruction.

	 17	
        Department of Defense Instruction 2200.01, “Combating Trafficking in Persons (CTIP),” September 15, 2010, Enclosure 2,
        Section 9.a.-c.




                                                                                                                                 DODIG-2014-079│ 21
Observation 3



                 The DoD CTIP Instruction does not include a specific requirement for the
                 combatant commands to include CTIP considerations in their routine operations or
                 operational/contingency plans. The DoD CTIP Instruction required combatant
                 commanders to:

                                 •	 develop policy documents to establish theater-level requirements for
                                     CTIP within their respective areas of operation;

                                 •	 develop CTIP policy and program guidance unique to each combatant
                                     command, supplementing DoD CTIP training to include unique cultural and
                                     legal considerations for their respective areas of responsibility;

                                 •	 provide oversight to theater and country TIP awareness training provided
                                     by subordinate Component commanders;

                                 •	 provide information on indictments and convictions regarding all known
                                     TIP cases to the Under Secretary of Defense for Personnel and Readiness
                                     DoD Program Manager; and

                                 •	 provide subordinate Component commanders with TIP intelligence
                                     and     information          pertinent       to     ongoing        theater      and      country        TIP
                                     awareness training.         18



                 Therefore, even though the DoD CTIP Instruction required the Joint Staff to assess
                 CTIP as part of the overall force planning function for any force deployment
                 and review joint plans, deployment orders, and other relevant documents, there was
                 no requirement for combatant commanders to include CTIP considerations into joint
                 plans and deployment orders.

                 In addition, Joint Staff executive leadership stated that they tracked CTIP training
                 for personnel assigned to the Joint Staff, but had not attempted to execute the
                 remaining responsibilities assigned to them by the DoD CTIP Instruction. Specifically,
                 they had not provided guidance on or assessed the inclusion of CTIP information into
                 joint plans of the combatant commands or subordinate task forces. The CTIP Program
                 Management Office reported they were working with the Joint Staff to include CTIP
                 considerations into joint planning.

                 During site visits and interviews, the DoD OIG found that U.S. Government personnel
                 assigned overseas (Afghanistan, Kuwait, Qatar, Germany, Korea, and Japan) were


                 	 18	
                         Department of Defense Instruction 2200.01, “Combating Trafficking in Persons (CTIP),” September 15, 2010, Enclosure 2,
                         Section 10.a.–e.




22 │ DODIG-2014-079
                                                                                          Observation 3



generally aware of CTIP statutes and DoD CTIP regulations, as a result of mandatory
training. However, most command personnel interviewed had a limited understanding
of how to apply statutes and regulations to their specific locality and actions to take
should they become aware of a potential TIP incident.

During document reviews and the conduct of interviews, the DoD OIG found that
few organizations below the combatant commands had developed CTIP policies,
procedures, or localized training supplements. Also, in most combatant commands,
CTIP was not specifically included in command inspections. This shortage of policy
and other guidance hindered commands’ prevention, identification, assessment,
investigation, and response to potential TIP incidents.

It is important that combatant commands, or any commands operating in contingency
environments, have adequate command-level policies and procedures to protect
all workers, including local and other country national workers, from TIP incidents
or activities, provide a means to investigate allegations, and apply corrective
actions regarding DoD contractors who may be in violation of CTIP regulations.


Recommendations, Management Comments, and
Our Response
Recommendation 3.a
Under Secretary of Defense for Personnel and Readiness, update Department of
Defense Combating Trafficking in Persons policy to require combatant command
joint plans, and other relevant documents to include Combating Trafficking in
Persons guidance and information, where necessary.


Under Secretary of Defense for Personnel and Readiness
The Office of the Under Secretary of Defense for Personnel and Readiness concurred
with Recommendation 3.a, and provided a plan to address the matter in future CTIP
guidance, in coordination with the Joint Staff and Combatant Commands.


Our Response
The DoD OIG finds the comments of the Office of the Under Secretary of Defense
for Personnel and Readiness to be responsive to Recommendation 3.a. No further
comments are required at this time.




                                                                                      DODIG-2014-079│ 23
Observation 3



                 Recommendation 3.b
                 Director, Joint Staff, in coordination with commanders of the combatant commands:

                       1.	     Assess Combating Trafficking in Persons as part of routine operations
                               and force planning and deployment.

                       2.	     Review joint plans, deployment orders and post-conflict plans for
                               inclusion of Combating Trafficking in Persons considerations.

                       3.	     Monitor implementation of Combating Trafficking in Persons policies
                               during all operations.

                 Joint Staff
                 The Vice Director, Joint Staff, concurred with Recommendations 3.b.1, 3.b.2, and 3.b.3
                 and provided a plan for addressing the matters.


                 Our Response
                 The DoD OIG finds the comments of the Vice Director, Joint Staff, to be responsive
                 to Recommendations 3.b.1, 3.b.2, and 3.b.3. No further comments are required at
                 this time.




24 │ DODIG-2014-079
                                                                                              Observation 4




Observation 4
Combating Trafficking in Persons Training—DoD
Military, Civilian, and Contractor Personnel
DoD Component implementation of CTIP awareness training was not sufficiently
benefitting its intended recipients.

The training was incomplete because:

         •	 not all DoD Component military and civilian personnel reported taking the
            mandatory annual CTIP training developed and approved by the Office of
            the Under Secretary of Defense for Personnel and Readiness,

         •	 the Office of the Under Secretary of Defense for Personnel and Readiness
            had not published policy requiring DoD contractors to complete the annual
            CTIP training, and

         •	 specialized CTIP training was not available for, legal counsel and strategic
            planners.

DoD personnel and contractors who do not complete CTIP training or are provided
insufficient training have reduced awareness of DoD efforts to deter activities that
would facilitate or support TIP, and potentially miss opportunities to prevent, detect,
and report TIP-related incidents.



Discussion
The data collected from the DoD Components by the DoD CTIP Program Management
Office for the annual CTIP training report indicated that a significant number of DoD
personnel had not reported completion of the required training. In addition, during
site visits to DoD installations in locations with a higher risk for TIP-related violations
outside of the continental United States, the DoD OIG observed that DoD contractors
directly responsible for employees had not received awareness training.            Finally,
personnel in several locations we visited indicated that the standard CTIP training
product developed by the DoD CTIP Program Management Office was the only CTIP
training available.




                                                                                          DODIG-2014-079 │ 25
Observation 4



                 Mandatory Combating Trafficking in Persons
                 TrainingCompliance
                 The DoD CTIP Instruction requires mandatory annual CTIP awareness training for
                 all Component members.                    The DoD Components are required to annually provide
                 CTIP training completion metrics to the DoD CTIP Program Management Office. From
                 2009 to 2012, the data showed that 70 percent of DoD personnel had completed the
                 required CTIP training. For 2013, the data indicated a significant improvement to
                 92 percent of DoD personnel completing the CTIP training. However, the reported
                 8 percent noncompliance means that potentially over 180,000 DoD personnel did not
                 complete the mandatory CTIP training in 2013.19

                 We did not observe significant operational impediments to Component implementation
                 of      the     CTIP      training      requirements.         The      DoD      CTIP      Program        Management
                 Office-developed training package was short in duration (approximately one hour to
                 complete) and readily available online and in PowerPoint, hardcopy, and group training
                 formats. The DoD CTIP Instruction also required the heads of the DoD Components to
                 conduct periodic evaluations of their CTIP awareness training. The DoD OIG found little
                 evidence of oversight of Component CTIP programs beyond the simple requirement
                 to report annual training numbers.                         Publishing a summary of DoD Component
                 CTIP training compliance may improve DoD Component performance.


                 Combating Trafficking in Persons Training for
                 DoD Contractors
                 The DoD CTIP Instruction did not require contractor personnel executing DoD contracts
                 to complete awareness training, or require the DoD CTIP Program Management Office
                 or the heads of Components to provide awareness materials to DoD contractors. In
                 response to this concern, at a March 15, 2012, meeting of the President’s Interagency
                 Task Force to Monitor and Combat Trafficking in Persons, the Deputy Secretary of
                 Defense stated that the Department would make annual CTIP training mandatory
                 for DoD contractors.               The Office of the Under Secretary of Defense for Personnel
                 and Readiness was reportedly developing policy and procedures to implement this
                 policy statement.

                 As of December 2013, the DoD CTIP Program Management Office reported that for
                 assignments within the U.S. Central Command area of responsibility, DoD contractors


                 	19	
                        DoD Components reporting CTIP training completion rates below 85 percent were: the Department of Defense Education
                        Activity, U.S. Navy, Defense Intelligence Agency, U.S. Marine Corps, the Office of the Under Secretary of Defense
                        Comptroller, and the Office of the Director, Administration and Management.




26 │ DODIG-2014-079
                                                                                                                                     Observation 4



take the CTIP training and are provided with CTIP information specific to the
U.S. Central Command area of operations when processing through a mobilization
center.20 However, CTIP training metric data for 2013 showed that less than half of
DoD contractors outside of the continental United States reported taking CTIP
awareness training.                   The CTIP training metric data did not indicate whether
any DoD contractors within the continental United States had received CTIP
awareness training.21


Specialized Combating Trafficking in Persons Training
Within the DoD Components and military commands, there were positions and
occupational specialties that exercised key CTIP roles and responsibilities that
were not adequately addressed in the DoD CTIP awareness training. While the DoD
law enforcement community had implemented specialized CTIP training, legal
counsel and staff planners could benefit from training better focused on their roles
and responsibilities.

                •	 Legal counsel needs to be alerted to relevant local national laws and treaties
                    regarding human trafficking, their relation to U.S. law and potential impact
                    on operations with respect to labor practices, status of forces agreements,
                    and other provisions that may impact CTIP.

                •	 Combatant command and joint task force staff planners need to be able to
                    apply DoD CTIP policy to force planning and force deployment, contingency
                    plans, and post-conflict planning.

The Office to Monitor and Combat Trafficking in Persons of the U.S. Department
of State, in its Trafficking in Persons Reports for 2012 and 2013, also identified the
need for the U.S. Government to expand specialized CTIP training for the Federal
workforce, including increased training on indicators of human trafficking.

The DoD CTIP Program Management Office reported that it has been developing
specialized training. They have regularly revised the CTIP annual awareness training
and the specialized CTIP training for law enforcement personnel. In addition, the
Office of Defense Procurement and Acquisition Policy of the Under Secretary of
Defense for Acquisition, Technology, and Logistics included a brief mention of CTIP in

	 20	
        This training is required for all DoD Military civilian and contract personnel by U.S. Central Command Regulation 570-4,
        “Combating Trafficking in Persons (CTIP), August 19, 2011, section 5.a.(2).
	 21	
        The DoD Combating Trafficking in Person’s Training Report – 2013, provided by the DoD CTIP Program Management Office
        on December 23, 2013 stated that 49,733 out of 118, 908 DoD Contractors outside of the continental United States were
        reported to have received the DoD CTIP training. The report did not indicate whether any DoD contractors within the
        continental United States had received DoD CTIP training.




                                                                                                                                   DODIG-2014-079 │ 27
Observation 4



                 the DoD contingency contracting course taught at the Defense Acquisition University.
                 During 2013, both offices reported that they were developing additional CTIP guidance,
                 training, and awareness materials for the acquisition community.

                 The actions of DoD military, civilian, and contractor personnel directly affect
                 mission completion and the overall credibility and reputation of the DoD and the
                 U.S. Government. DoD personnel who are not aware of TIP and how to identify it are
                 similarly hindered in its investigation, correction, or prevention.


                 Recommendations, Management Comments, and
                 Our Response
                 Revised Recommendations
                 In the draft report circulated for management comments, the draft version of
                 Recommendation 4.a.1 was:

                            Under Secretary of Defense for Personnel and Readiness:
                            Enforce Department of Defense Component compliance with
                            the requirement to conduct annual Combatting Trafficking in
                            Persons awareness training for all Component members.

                 In response to comments from the Office of the Under Secretary of Defense for
                 Personnel and Readiness, the DoD OIG deleted draft Recommendation 4.a.1,
                 regarding Office of the Under Secretary of Defense for Personnel and Readiness
                 enforcement of CTIP awareness training requirements, added a discussion on
                 the subject in Observation 4, and changed draft Recommendations 4.a.2 and 4.a.3 to
                 Revised Recommendations 4.a.1 and 4.a.2.

                 In the draft report circulated for management comments, the draft version of
                 Recommendation 4.a.2 was:

                            Under Secretary of Defense for Personnel and Readiness:
                            In coordination with the Under Secretary of Defense for
                            Acquisition, Technology, and Logistics, implement the stated
                            intent of the Deputy Secretary of Defense requiring Department
                            of Defense contractors to complete annual Combating Trafficking
                            in Persons training.




28 │ DODIG-2014-079
                                                                                                        Observation 4



Based on comments from and discussion with representatives of the Office of
the Under Secretary of Defense for Personnel and Readiness, and the Office of the
Under Secretary of Defense for Acquisition, Technology and Logistics, the DoD OIG
revised draft Recommendation 4.a.2, splitting it into Revised Recommendation 4.a.1
and a newly created Recommendation 4.b, to better align with current responsibilities
of both Offices.


Recommendation 4.a
Under Secretary of Defense for Personnel and Readiness:

      1.	 Implement          the    stated    intent     of   the    Deputy          Secretary     of
            Defense        requiring        Department         of     Defense             contractors
            to     complete        annual     Combating         Trafficking          in      Persons
            training    by    publishing     it    in   Department         of    Defense      policy.

      2.	 In       coordination     with     the    Under     Secretary         of   Defense      for
            Acquisition,     Technology,      and       Logistics,   the        director     of   the
            Joint Staff, and the secretaries of the military departments,
            develop     and        implement       specialized       Combating            Trafficking
            in Persons training for, legal counsel and strategic planners.

Under Secretary of Defense for Personnel and Readiness
The Office of the Under Secretary of Defense for Personnel and Readiness non-concurred
with draft Recommendation 4.a.1, and stated that the CTIP Instruction assigns them
the responsibility to develop overall guidance for DoD CTIP, rather than to enforce
compliance. The Office of the Under Secretary of Defense for Personnel and Readiness
concurred with draft Recommendations 4.a.2, and 4.a.3, and provided a plan to require
DoD contractors to complete annual CTIP training, as well as to develop and provide
additional specialized CTIP training.


Our Response
The DoD OIG finds the comments of the Office of the Under Secretary of Defense
for Personnel and Readiness to be responsive to Revised Recommendation 4.a.1
and 4.a.2. No further comment is required at this time.




                                                                                                    DODIG-2014-079 │ 29
Observation 4



                 Recommendation 4.b
                 Under Secretary of Defense for Acquisition, Technology and Logistics,
                 upon   issuance     of   a   Department    of   Defense      policy    requirement     for
                 Department     of    Defense    contractors     to   complete        annual     Combating
                 Trafficking   in    Persons    training,   request    that     the    Defense      Federal
                 Acquisition   Regulation      Supplement    address    this    training       requirement.


                 Under Secretary of Defense for Acquisition, Technology and Logistics
                 The Office of the Under Secretary of Defense for Acquisition, Technology and
                 Logistics concurred with newly created Recommendation 4.b in this report, and
                 stated they would develop a plan to implement the requirement, once a DoD policy
                 requirement is issued.


                 Our Response
                 The DoD OIG finds the comments of the Office of the Under Secretary of Defense
                 for Acquisition, Technology and Logistics to be responsive to newly created
                 Recommendation 4.b. No further comment is required at this time.




30 │ DODIG-2014-079
                                                                 Follow-Up on Prior Recommendations




Follow-Up on Prior Recommendations
As of February 2014, the Office of the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology had not completed modifications to contracts they identified
in December 2011 as deficient with respect to CTIP requirements.

This occurred because subordinate commands had not responded to statutes
and Federal Acquisition Regulations, as well as memos and policy alerts issued in
November 2011, and February 2012, by the Office of the Assistant Secretary of the
Army for Acquisition, Logistics, and Technology.

While the Office of the Assistant Secretary of the Army for Acquisition, Logistics,
and Technology had reduced the number of deficient contracts that did not meet
CTIP statutes, regulations, and guidance, their action was not complete.


Discussion
Section 232 of the “William Wilberforce Trafficking Victims Protection Reauthorization
Act of 2008,” Public Law 110-457 (December 23, 2008), required the Inspectors General
of the Department of Defense, the Department of State, and the United States Agency
for International Development to investigate a sample of contracts for which there was
a heightened risk that a contractor may engage in acts related to TIP.

In response, we examined over 900 contracts solicited, awarded, or administered by
Army, Navy, Marine Corps, and Air Force commands, and the Defense Contract
Management Agency.      The contract sample consisted of construction and service
contracts, each with a total value of $5 million or more, with periods of performance
between 2009 and 2011, and a place of performance in countries in the areas of
responsibility of the U.S. Pacific, Central, European and Africa Commands. We published
four reports summarizing our findings (see Appendix B).

For each contract, the responsible contracting officer stated whether the mandatory
CTIP clause(s) were present. We consolidated and verified the data provided. The
Military Services developed corrective action plans to correct deficient contracts
in response to recommendations from our CTIP evaluation reports.

As of May 2014, responsible commands had not modified 15 contracts identified
as deficient, out of 974 reviewed, to incorporate the required CTIP clauses. All
15 contracts belong to the Office of the Assistant Secretary of the Army for Acquisition,




                                                                                        DODIG-2014-079 │ 31
Follow-Up on Prior Recommendations



                 Logistics, and Technology, which had concurred with our prior recommendations to
                 modify the deficient contracts to include the relevant CTIP clauses.22 In the summer
                 and fall of 2013, the Office of the Assistant Secretary of the Army for Acquisition,
                 Logistics, and Technology directed correction of the deficient contracts, but as of
                 May 2014, U.S. Army commands had not completed the contract modifications.




                 	 22	
                         DoD OIG Report DODIG-2012-041, “Evaluation of DoD Contracts Regarding Combating Trafficking in Persons: U.S. European
                         Command and U.S. Africa Command,” January 17, 2012, pages 7 and 8; and DoD OIG Report DODIG-2012-086, “Evaluation
                         of DoD Contracts Regarding Combating Trafficking in Persons: Afghanistan,” May 15, 2012, pages 6 and 8.




32 │DODIG-2014-079
                                                                                             Appendixes




Appendix A
Scope and Methodology
We conducted this review in accordance with DoD CTIP Instruction; the Inspector
General Act of 1978, as amended; and “Quality Standards for Inspection and
Evaluation,” Council of the Inspectors General on Integrity and Efficiency, January 2012.

We conducted site visits from October 2009 through August 2012. Our field work
resulted in publication of four reports meeting a statutory requirement to assess
DoD inclusion of the FAR CTIP Clause in contracts, and this report summarizing
DoD compliance with the DoD CTIP Instruction and CTIP program performance.

We reviewed the CTIP policies and programs at 67 DoD organizations, including
the Military Services, many DoD Components, as well as subordinate or regional
DoD offices that we believed could have a larger impact on the potential for TIP
incidents to occur, or to be mitigated. We chose those locations or offices because they
had a higher likelihood of sending workers outside of the country on temporary or
permanent duty, or were likely to have a significant number of contracts with places of
performance outside of the continental U.S.

We visited 46 installations, conducting over 280 briefings, interviews, and sensing
sessions with over 300 military and DoD civilian personnel and over 200 DoD
contractor personnel. We also contacted selected DoD administrative and criminal
investigation organizations to learn how they process TIP allegations. We reviewed
available CTIP inspection reports conducted by U.S. Forces Korea and U.S. Army-Central.

We discussed with commanders their understanding and emphasis regarding CTIP
and program implementation by their staff and subordinate organizations.             We
interviewed CTIP program officers, legal counsel, command inspectors general,
and leadership and staff of law enforcement, acquisition and contracting, contract
management, quality assurance, and training organizations.

We met with program personnel at the DoD CTIP Program Management Office; the
Defense Procurement and Acquisition Policy Office of the Office of the Under Secretary
of Defense for Acquisition, Technology, and Logistics; and responsible leadership of
the Military Services, combatant commands, and the Joint Staff. Finally, we met with
DoD OIG officials responsible for the DoD TIP Hotline and TIP-related investigations.




                                                                                        DODIG-2014-079 │ 33
Appendixes



                 Limitations
                 We limited the scope of this evaluation to the DoD CTIP program, as well as those of
                 the DoD Components and subordinate commands.


                 Use of Computer-Processed Data
                 We did not use computer-processed data to perform this evaluation.


                 Use of Technical Assistance
                 We did not use technical assistance to perform this evaluation.




34 │ DODIG-2014-079
                                                                                           Appendixes




Appendix B
Prior Coverage
The Department of Defense Inspector General (DoD IG) issued four reports directly
relating to the objectives of this project. Unrestricted DoD IG reports can be accessed
at http://www.dodig.mil/pubs/index.cfm.


DoD OIG
Report No. DODIG-2012-086, “Evaluation of DoD Contracts Regarding Combating
Trafficking in Persons: Afghanistan,” May 15, 2012

Report No. DODIG-2012-041, “Evaluation of DoD Contracts Regarding Combating
Trafficking in Persons:     U.S. European Command and U.S. Africa Command,”
January 17, 2012

Report No. SPO-2011-002, “Evaluation of DoD Contracts Regarding Combating
Trafficking in Persons: U.S. Central Command,” January 18, 2011

Report No. IE-2010-001, “Evaluation of DOD Contracts Regarding Combating Trafficking
in Persons,” January 15, 2010

Report No. IE-2007-002, “Evaluation of DoD Efforts to Combat Trafficking in Persons,”
November 21, 2006




                                                                                      DODIG-2014-079 │ 35
Appendixes




               Appendix C
               Department of Defense Combating Trafficking in Persons
               Task Force Members
                      1.	   Office of the Under Secretary of Defense for Personnel and Readiness, Defense
                            Human Resources Activity, Policy & Programs Support

                      2.	   Defense Contract Management Agency

                      3.	   Defense Logistics Agency

                      4.	   Defense Manpower Data Center, Synchronized Pre-deployment & Operational
                            Tracker Project Management Office

                      5.	   Office of Defense Procurement and Acquisition Policy, Office of the Under
                            Secretary of Defense for Acquisition, Technology and Logistics

                      6.	   Office of the Secretary of Defense Comptroller, Defense Contract Audit Agency

                      7.	   Office of the Under Secretary of Defense for Policy

                      8.	   Office of the Secretary of Defense, Office of General Counsel

                      9.	   U.S.   Army, Office of the Assistant Secretary of the Army for Military and
                            Reserve Affairs; Policy and Support Directorate, Office of the Deputy Assistant
                            Secretary of the Army for Procurement

                      10.	 U.S. Navy, Military and Reserve Affairs

                      11.	 U.S. Air Force, Air Force Services Strategic Requirements

                      12.	 U.S. Marine Corps, Personnel Policy

                      13.	 Joint Chiefs of Staff, J-1, J-5, and J7

                      14.	 Army and Air Force Exchange Service

                      15.	 U.S. Pacific Command

                      16.	 U.S. Special Operations Command, Training Directorate

                      17.	 U.S. Central Command J4 and J5

                      18.	 U.S. Central Command Joint Theater Support Contracting Command

                      19.	 DoD OIG Hotline, Human Capital Management, DCIS (observers)



36 │ DODIG-2014-079
                                                Management Comments




Management Comments
Defense Human Resources Activity, Office of the Under
Secretary of Defense for Personnel and Readiness




                                                      DODIG-2014-079 │ 37
Management Comments



                Defense Human Resources Activity, Office of the Under
                Secretary of Defense for Personnel and Readiness (cont’d)




                       Attachment 1: Office of the Under Secretary of Defense For Personnel and Readiness
                                     (OUSD(P&R)) Comments to DoD IG Draft Report “Evaluation of the
                                     Department of Defense Combating Trafficking in Persons Program”
                                     (Project No. D2009-DIP0E3-0260.000)

                       Recommendations Requiring OUSD(P&R) Comment:

                       1) Under Secretary of Defense for Personnel and Readiness, publish updated Department
                       of Defense Combating Trafficking in Persons guidance that:

                       1.a) Fully incorporates U.S. Government Combating Trafficking in Persons policy, taking
                       into consideration Department of Defense Combating Trafficking in Persons Task Force
                       findings.

                       OUSD(P&R) Response: Concur.
                       The reissuance of the DoD Instruction (DoDI) 2200.01, “Combating Trafficking in Persons
                       (CTIP),” is under development to update the existing 2010 document. The updated DoDI takes
                       into consideration DoD CTIP Task Force Findings, along with making many other key statutory
                       and regulatory updates. The Instruction has been modified to incorporate the findings of this
                       report and is being informally coordinated. Formal coordination is anticipated by May 2014.

                       1.b) Reinforce Department of Defense Component reporting requirements regarding
                       CTIP metrics and relevant information.

                       OUSD(P&R) Response: Concur.
                       The updated DoDI will include a reporting matrix that reinforces reporting requirements and
                       establishes clear procedures for reporting. The Defense Human Resources Activity also requests
                       in the follow-up report the IG provide more details regarding what information is considered to
                       be relevant.

                       1.c) Specifies, in detail, Combating Trafficking in Persons program elements for
                       Department of Defense acquisition; investigation and law enforcement; operational
                       planning; and training functions.

                       OUSD(P&R) Response: Concur.
                       New specific requirements for acquisition and law enforcement training will be added to DoDI
                       2200.01, as well as information for Joint Staff to include CTIP in operational plans and training
                       functions.

                       1.d) Establishes a clear and comprehensive process for reporting trafficking in persons
                       incidents and sharing information among appropriate Department of Defense
                       organizations.

                       OUSD(P&R) Response: Concur.
                       Specific procedures for Trafficking in Persons (TIP) or TIP-related offense information will be
                       added in the updated DoDI. TIP cases received by OUSD P&R will be disseminated to




38 │ DODIG-2014-079
                                                  Management Comments



Defense Human Resources Activity, Office of the Under
Secretary of Defense for Personnel and Readiness (cont’d)




                                                        DODIG-2014-079 │ 39
Management Comments



                Defense Human Resources Activity, Office of the Under
                Secretary of Defense for Personnel and Readiness (cont’d)




40 │ DODIG-2014-079
                                                Management Comments



Defense Procurement and Acquisition Policy, Office
of the Under Secretary of Defense for Acquisition,
Technology and Logistics




                                                      DODIG-2014-079 │ 41
Management Comments



                 Vice Director, Joint Staff




42 │ DODIG-2014-079
                                      Management Comments



Vice Director, Joint Staff (cont’d)




                                            DODIG-2014-079 │ 43
                               FOR OFFICIAL USE ONLY                               Acronyms and Abbreviations




Acronyms and Abbreviations
           CTIP Combating Trafficking in Persons
      DoD CTIP Department of Defense Instruction 2200.01, “Combating Trafficking in Persons
    Instruction (CTIP),” February 16, 2007, revised September 15, 2010
FAR CTIP Clause Federal Acquisition Regulation clause, 52.222-50, “Combating Trafficking in Persons”
            TIP Trafficking in Persons
         U.S.C. United States Code




                  DRAFT REPORT	             FOR OFFICIAL USE ONLY
                                                                                                       Project No. │ 45
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D epartment of D efense │ I nspector G eneral
               4800 Mark Center Drive
             Alexandria, VA 22350-1500
                   www.dodig.mil
           Defense Hotline 1.800.424.9098
